Jeffrey L. Driscoll

Shareholder
jdriscoll@wth-law.com
970-242-6262, Ext. 254

September 20, 2019

VIA FIRST-CLASS MAIL
Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
RE:

Butler v. Board of County Commissioners for San Miguel County, et al.,
No. 19-285

Dear Mr. Harris:
On behalf of the Respondents in the above-captioned case, I respectfully request under Rule 30.4
of the Rules of this Court, an extension of time up to and including November 4, 2019, within
which to file a brief in opposition to certiorari. The petition for a writ of certiorari was filed on
September 3, 2019. Respondents’ brief in opposition is currently due on October 3, 2019.
The extension is respectfully requested because of counsel’s other professional commitments.
Thank you in advance for your attention to this matter, and please do not hesitate to contact me
should you need additional information.
Respectfully submitted,
WILLIAMS, TURNER & HOLMES, P.C.

Jeffrey M. Driscoll
Attorneys for Respondents
cc:

Counsel for Petitioner

Susan M. Corle | Kirsten M. Kurath | Phillip J. Jones* | Jeffrey L. Driscoll | Douglas V. Johnson**
All attorneys admitted in Colorado. *Also admitted in Florida. **Of Counsel
Tel 970-242-6262 | Fax 970-241-3026 | wth-law.com

